Ogunsula vs Barr, Attorney General, et al.
Case No. 19-425
Petition for Rehearing
U.S. Supreme Court

CERTIFICATE OF SERVICE

I hereby certify that on 21th day of December 2019, a Petition For Rehearing will be
sent via U.S. mail or electronic delivery to the Solicitor General of the U.S.
representing William P. Barr, Attorney General of the U.S., Respondent and other
parties (representing et. al) named in this Petition and/or their attorneys.

Dated this 20th day of December 2019,

A

II

Veronica W. Ogunsula, Pro Se
9801 Apollo Drive, #o334
Largo, Maryland 20792
240-486-1427

